HHS/OIG Audit: "Looking Glass Family&Youth Services, Inc. Eugene, Oregon Audit of Administration for Children and Families Grant No. 10CX0015 for the Period December 1, 1996 through November 30, 1999,"(A-10-01-00010)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Looking Glass Family & Youth Services, Inc. Eugene, Oregon Audit of Administration for Children and Families
Grant No. 10CX0015 for the Period December 1, 1996 through November 30, 1999," (A-10-01-00010)
August 31, 2001
Complete Text of Report is available in PDF format (389 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Grant No. 10CX0015, a discretionary grant
awarded by the U.S. Department of Health and Human Services, Administration for Children and Families.  Looking Glass
Family & Youth Services, Inc., Eugene, Oregon, was awarded a grant for the project period from December 1, 1996 through
November 30, 1999, in the amount of $600,000, $200,000 for each of the 3 years of the project period.  The grant was
awarded to assist homeless youth, 16 to 21 years of age, through outreach, basic life skills, housing assistance, and case
management services.  The objective of our audit was to determine if Looking Glass accomplished the five grant objectives
of the grant.  Looking Glass accomplished the five major grant objectives.  Progress reports were submitted on
a timely basis and the accomplishment of the grant objectives was adequately supported.